Office of Inspector General

March 29, 2011

MEMORANDUM

TO:                  Alexandria Panehal, Director
                     Office of Infrastructure and Engineering
                     Economic Growth, Agriculture, and Trade Bureau

                     David Atwood, Director
                     Office of Sustainable Development
                     Africa Bureau

FROM:                Joy Kadnar, Director /s/
                     Inspections and Evaluations Division
                     Office of Audit

SUBJECT:             Review of USAID’s Obligation of Funds and Project Planning for the African
                     Global Quilt Alliance (Report No. 2-000-11-002-S)

This memorandum transmits our final report on the subject review. This report contains one
recommendation directed to the Bureau for Economic Growth, Agriculture, and Trade’s Office of
Infrastructure and Engineering for its staff to receive training on the mandatory project planning
requirements. In finalizing the report, we considered management comments on the draft and
included them (without attachments) in Appendix II.

On the basis of the information provided by the bureau in its response to the draft report, we
determined that final action has been taken on the recommendation.

I appreciate the cooperation and courtesy extended to my staff during this review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
USAID’s Africa Bureau, Office of Sustainable Development, supports the Bureau and Africa
missions by providing analytical and technical assistance related to country programs, and
coordinates with donors and partner organizations to promote social and economic
development. It was responsible for preobligation and project planning requirements for the
African Global Quilt Alliance (Global Quilt Alliance). The Global Quilt Alliance was conceived to
build information communications technology capacity in Africa while developing a free web-
based method for sharing medical research and information from Africa with educational and
medical institutions worldwide. In September 2006, the Office of Sustainable Development
entered into an interagency agreement with the General Services Administration’s Federal
Systems and Information Management program (FEDSIM), providing $1.1 million to support the
Global Quilt Alliance.

USAID’s Bureau of Economic Growth, Agriculture, and Trade, Office of Infrastructure and
Engineering, supports the development and implementation of information communications
technologies initiatives and infrastructure among other things. The Office of Sustainable
Development delegated implementation authorities for the Global Quilt Alliance to the Office of
Infrastructure and Engineering. This action passed the responsibilities for project planning on to
the Office of Infrastructure and Engineering before funds could be used for the Global Quilt
Alliance.

The Office of Infrastructure and Engineering raised concerns about procedures and practices
related to information communications technology procurements and requested that the Office
of Inspector General (OIG) conduct a review. The objective of OIG’s review was to determine
whether, in developing the African Global Quilt Alliance activity, USAID’s Office of Sustainable
Development and Office of Infrastructure and Engineering met the Automated Directives
System (ADS) preobligation and project planning requirements. These requirements are
presented in USAID’s ADS 201.3.11, “Pre-Obligation and Project Planning Requirements.”

The review concluded that—

•   The Office of Sustainable Development met mandatory requirements before obligating
    $1.1 million to FEDSIM to support the Global Quilt Alliance (page 4).

•   The Office of Infrastructure and Engineering was unable to meet all of the mandatory project
    planning requirements before it attempted to use FEDSIM funds in early 2010 to procure
    information communications technology equipment and services for the Global Quilt Alliance
    (page 4).

The Office of Sustainable Development complied with the preobligation steps mandated in ADS
when it obligated funds for the Global Quilt Alliance. However, it deferred the environmental
impact assessment requirement until the activities could be identified. This deferral is allowed
as long as the Office of Infrastructure and Engineering, which took over implementation of the
Global Quilt Alliance, completes the project planning requirements, including the environmental
impact assessment.

The Office of Infrastructure and Engineering, however, did not comply with the project planning
steps mandated by ADS because its staff had limited familiarity with all of the requirements. As


                                                                                                2
a result, it was unable to meet its commitment to provide information communications
technology equipment and services for the Global Quilt Alliance. The Office of Infrastructure
and Engineering needs to have its staff adequately trained to meet the mandatory project
planning requirements for any future activities.

OIG recommends that the Office of Infrastructure and Engineering develop and conduct training
to inform staff about their responsibilities relating to mandatory project planning requirements
(page 6).

Detailed findings appear in the following section. Appendix I contains the scope and
methodology. Management comments will be presented in their entirety in Appendix II.




                                                                                              3
REVIEW RESULTS
Office of Sustainable Development
Met Mandatory Preobligation
Requirements
ADS Section 201.3.11.2 identifies the following mandatory steps that the Office of Sustainable
Development was required to take when it obligated (provided) funds to FEDSIM for the Global
Quilt Alliance:

•   Conduct adequate planning – Ensure that the assistance is linked to results specified in a
    results framework, and that both an illustrative budget and a performance management plan
    are created.

•   Conduct environmental impact assessment – Ensure that all mandatory requirements
    relating to environmental procedures as outlined in ADS 204 are met. ADS 204 provides
    policy directives and required procedures on how to apply Title 22 of the Code of Federal
    Regulations, Part 216 to the USAID assistance process.

•   Prepare Activity Checklist – Provide evidence that the obligation is in compliance with all
    applicable statutes.

•   Obtain approval by an authorized official – Acquire certification of the assistance from the
    appropriate authority.

•   Notify Congress – Ensure that there are no outstanding congressional objections.

The Office of Sustainable Development met the preobligation requirements for the Global Quilt
Alliance in August 2006. However, it deferred the environmental impact assessment until the
specific activities to be conducted under the Global Quilt Alliance could be identified—an
acceptable reason for deferral. In September 2006, the Office of Sustainable Development
provided $1.1 million to FEDSIM for the Global Quilt Alliance; and delegated implementation
authority over the Global Quilt Alliance to the Office of Infrastructure and Engineering in order to
carry out procurement activities.

Office of Infrastructure and
Engineering Did Not Meet All
Mandatory Project Planning
Requirements
ADS Section 201.3.11.4 identifies the following mandatory steps for project planning that the
Office of Infrastructure and Engineering was required to take when it attempted to use FEDSIM
funds for the Global Quilt Alliance:




                                                                                                  4
•   Conduct required analyses – Ensure that an environmental impact analysis is completed
    and relevant recommendations are incorporated into project planning. 1

•   Formulate initial cost estimate and develop financial plan – Complete an estimate of costs
    needed to implement the project and a plan for financing the project.

•   Develop acquisition and assistance plan – Identify the procurement method to be used for
    implementing the project.

•   Determine and meet remaining preobligation requirements – Ensure that all preobligation
    requirements were met before using funds to implement the project.

•   Prepare activity approval document – Provide evidence that appropriate planning for the
    project-related activities has been completed.

•   Obtain appropriate approvals – Obtain certification of the activity approval document from
    the appropriate authority.

The Office of Infrastructure and Engineering attempted to procure information communications
technology equipment and services for the Global Quilt Alliance in January, April, and July
2010. Although it made several attempts to submit the required documentation to the
contracting officer, the environmental impact analysis 2 was not completed. Even though it had
not completed the required analyses or determined the remaining preobligation requirements,
both of which are mandatory project planning requirements, the Office of Infrastructure and
Engineering made three attempts to use funds to implement the project:

1. In January 2010, the Office of Infrastructure and Engineering provided an information
   communications technology equipment list and an e-mail request to the contracting officer to
   approve the procurement for the Global Quilt Alliance.

2. In April 2010, the Office of Infrastructure and Engineering identified to the contracting officer
   the involvement of a new implementing partner and proposed a different procurement
   method to obtain information communications technology equipment and services.

3. In July 2010, in its last attempt to use funds to procure information communications
   technology equipment and services from FEDSIM, the Office of Infrastructure and
   Engineering provided the contracting officer with a program description identifying the
   contributions of each implementing partner, a proposed plan for equipment procurement,
   and yet another proposed procurement method.



1
  Two analyses are mandated by statute and regulation: a gender analysis and an environmental analysis.
This review considered only the requirement for an environmental analysis because the gender analysis
became mandatory on November 5, 2009, subsequent to the Office of Sustainable Development’s
distribution of funds to FEDSIM in 2006.
2
  ADS 201.3.11.6: Environmental Analysis. MANDATORY. “Drawing upon the previous environmental
analysis during strategic planning (201.3.9.2) and the information from the preobligation requirement for
environmental impact (201.3.11.2.b), Assistance Objective Teams must incorporate the environmental
recommendations into project planning. Often, additional environmental analyses may be useful to project
or activity design and should be undertaken at this time.”


                                                                                                       5
Although the Office of Infrastructure and Engineering provided additional documentation, in
none of the three attempts did it meet all mandatory planning requirements necessary to
procure information communications technology equipment. Specifically, it neglected to
conduct an environmental impact analysis, a preobligation requirement that was deferred to it by
the Office of Sustainable Development when the latter provided $1.1 million to FEDSIM for the
Global Quilt Alliance. Because the environmental assessment was never completed, the Office
of Infrastructure and Engineering was unable to fulfill two of the mandatory planning
requirements: conduct required analyses and determine the remaining preobligation
requirements.

The Office of Infrastructure and Engineering’s noncompliance was caused by its unfamiliarity
with the mandatory project planning requirements of ADS Section 201.3.11.4. In particular, it
did not have an adequate training program in place to inform its staff about the mandatory
requirements to be met before using U.S. Government funds and to facilitate compliance with
those requirements. The Office of Infrastructure and Engineering stated that although it does
not conduct training for these mandatory requirements, it has guidance available to its staff on
its intranet Web site.

As a result of the Office of Infrastructure and Engineering’s noncompliance with mandatory
project planning requirements, it was unable to procure information communications technology
equipment and services for the Global Quilt Alliance. Although the Office of Sustainable
Development eventually met these requirements in November 2010, the Office of Infrastructure
and Engineering needs to have its staff adequately prepared to meet the mandatory project
planning requirements for any future activities.

To address these problems, this review makes the following recommendation.

   Recommendation 1. We recommend that the Director for the Office of Infrastructure
   and Engineering in the Bureau for Economic Growth, Agriculture, and Trade develop
   and conduct training to inform staff about their responsibilities relating to mandatory
   project planning requirements.




                                                                                              6
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Bureau of Economic Growth, Agriculture, and Trade agreed with the report’s
recommendation to develop and conduct training for the Office of Infrastructure and Engineering
staff’s responsibilities relating to mandatory project planning requirements. The Bureau
developed training material and Standard Operating Procedures for its staff. It conducted
mandatory training for all Office of Infrastructure and Engineering staff on January 26, 2011, of
whom 82 percent were in attendance. Those who were unable to attend will be briefed
separately on the mandatory preobligation requirements. On the basis of the information
provided by the Bureau in its response to the draft report, final action has been taken on the
recommendation.

The draft report issued February 25, 2011, contained two recommendations directed at the
Office of Infrastructure and Engineering. The Bureau provided documentation obviating the first
recommendation to complete all USAID mandatory project planning requirements before taking
further action on the Global Quilt Alliance. Specifically, the Office of Sustainable Development
decided to meet its commitment by managing the project directly, including procurement.
Moreover, the Initial Environmental Examination deferred to the Office of Infrastructure and
Engineering was eventually completed by the Office of Sustainable Development. 3 All
mandatory preobligations and project planning requirements for the Global Quilt Alliance were
completed in November 2010; as a result, the final report contains only one recommendation.

The Bureau’s written comments on the draft report are included in their entirety (without
attachments) as Appendix II to this report.




3
  The Global Quilt Alliance is an activity under the African Global Competitiveness Initiative, which had a
blanket Initial Environmental Examination in 2006. However, this Initial Environmental Examination from
2006 was approved by “deferral.” In other words, each activity under the African Global Competitiveness
Initiative would require an environmental analysis before its implementation. The Office of Infrastructure
and Engineering did not conduct this activity-level environmental analysis in 2008. It has now been done
by the Office of Sustainable Development. In the 2010 approval, the Bureau’s environmental officer
determined that the Global Quilt Alliance activity was appropriate to be covered by the original 2006
blanket Initial Environmental Examination.


                                                                                                         7
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Although this review is not an audit, the Office of Inspector General’s Inspections and
Evaluations Division conducted it in accordance with the general standards in Chapter 3 as well
as the evidence and documentation standards in Paragraph 7.55 and Paragraphs 7.72 through
7.79 of Government Auditing Standards. Those standards require that we plan and perform the
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions in accordance with the review objective.

The review was designed to determine whether the Office of Sustainable Development and the
Office of Infrastructure and Engineering met their respective mandatory preobligation and
project planning requirements listed in USAID’s ADS Chapter 201, “Planning,” Section 201.3.11,
“Pre-Obligation and Project Planning Requirements,” and subsections. This review was
conducted at the Office of Sustainable Development and the Office of Infrastructure and
Engineering in Washington, DC, from July 13 through August 6, 2010, with followup fieldwork
from August 23 to December 20, 2010.

Scope
To answer the review objective, OIG considered only the mandatory requirements in USAID’s
ADS, Chapter 201 “Planning,” specifically Subsection 201.3.11, “Pre-Obligation and Project
Planning.” USAID requires that steps be taken before any U.S. Government funds are
obligated, especially when the project or activity exceeds $500,000.

Our review objective had two subparts: preobligation and project planning. The first part was to
determine whether the Office of Sustainable Development met mandatory preobligation
requirements before it initially obligated funds for the Global Quilt Alliance. The second part
was to determine whether the Office of Infrastructure and Engineering met its mandatory project
planning requirements before subobligating funds for the Global Quilt Alliance.

Methodology
To answer both parts of the review objective, we gained an understanding of ADS 201.3.11
preobligation and project planning requirements by researching the mandatory statutory and
regulatory requirements of that section and its subsections. We also learned through interviews
and testimonies what the Office of Sustainable Development and the Office of Infrastructure and
Engineering intended to accomplish by supporting the Global Quilt Alliance. We evaluated
testimony by analyzing documents provided by both offices, and also analyzed documents and
communications from the Office of the Chief Information Officer’s contracting officer, the
contracting officer’s technical representative, and the directors of the Office of Sustainable
Development and the Office of Infrastructure and Engineering.




                                                                                              8
                                                                                   Appendix I


Finally, we coordinated with program officials in the General Services Administration’s FEDSIM
program to obtain chronological information about Office of Sustainable Development’s
obligation of funds to FEDSIM and the Office of Infrastructure and Engineering’s attempted
subobligation of those funds. We reviewed the terms and conditions of documents provided,
including the original 2008 memorandum of understanding that established the broad concept of
the Global Quilt Alliance, the 2006 FEDSIM interagency agreement and modification, FEDSIM
account spreadsheet, a revised 2010 memorandum of understanding, a draft 2010
memorandum of agreement, a 2010 draft of the Global Quilt Alliance program description, and
an Office of Sustainable Development action memorandum dated August 2006.

On the basis of these interviews and document analyses, we concluded whether the Office of
Sustainable Development met its preobligation requirements and whether the Office of
Infrastructure and Engineering met its project planning requirements.




                                                                                            9
                                                                                              Appendix II



MANAGEMENT COMMENTS

TO:             Joy Kadnar, Director, Inspections and Evaluations Division, Office of Audit,
                IG/A/I&E

FROM:           Michael Yates, Senior Deputy Assistant Administrator, EGAT /s/

SUBJECT:        Review of USAID’s Requirements for Obligation of Funds and Project Planning
                as They Pertain to the African Global Quilt Alliance (Report No. 2-000-1—00X-
                S)
Date:           March 4, 2011


Thank you for the opportunity to provide documentation which we hope you will find sufficient
to close each of the recommendations that the IG included in its report, “Review of USAID’s
Requirements for Obligation of Funds and Project Planning as They Pertain to the African
Global Quilt Alliance (Audit Report No. 2-000-10-00X-S),” dated February 25, 2011.

This review made two recommendations for EGAT’s Infrastructure and Engineering Office:

    1.  Complete all USAID mandatory project planning requirements before taking further
       action on the Global Quilt Initiative.
    2. Develop and conduct training to inform staff about their responsibilities relating to
       mandatory project planning requirements.

With regard to the first recommendation, to complete all mandatory project planning
requirements before taking further action on the Global Quilt Initiative, program and contract
management of the Africa Global Quilt Alliance has been fully assumed by the Africa Bureau.
This decision was made in the Spring of 2010 by the Africa Bureau after the remaining funds for
Global Quilt were de-obligated. ∗ The Africa Bureau decided to meet its commitments to the
Global Alliance and to manage the project directly, including procurement. In this context,
AFR/SD prepared and approved an AAD for the Global Africa Quilt Alliance on November 5,
2010 (see attached documents entitled: AAD signed Global Quilt November 5, 2010 AFR SD 1
of 2 and 2 of 2). This AAD was cleared by AFR/SD, AFR/GC, AFR/SD/BEA and OAA.
EGAT/I&E contributed to the content, but was neither a signatory to nor asked to clear this



∗
  FY 2006 funds that had been obligated to the FEDSIM procurement mechanism in 2007 for Global Quilt were
deobligated by the COTR early in 2010. When attempts to quickly recover the funds were unsuccessful, it was
necessary to reprogram new FY 2010 funds in the USAID Africa Regional budget to cover the equipment
procurement.


                                                                                                        10
                                                                                    Appendix II


AAD. Given the clearances secured by AFR prior to approving this AAD, including from
AFR/GC, AFR appears to have met all the ADS requirements for AAD approval.

With regard to the issue the IG raised regarding an IEE specifically for the Africa Global Quilt
Alliance activity, this AFR/SD AAD includes a statement, cleared by the Africa Bureau
Environmental Officer, that this activity is covered by the blanket AGCI Initial Environment
Examination that was in the original AAD signed by the Africa Bureau on August 24, 2006. The
Africa Bureau Environmental Officer provided his clearance, indicating that he had reviewed the
AAD and the equipment list, concluded that further environmental assessment was not required
(see pg. 7 and Attachment 13 of attached document entitled: AAD signed Global Quilt 11 05
2010 AFR SD 2 of 2), and agreed that the original AGCI IEE was sufficient and appropriate to
cover the Africa Global Quilt Alliance activity. Based on these actions taken to rectify AAD
program documentation related to the African Global Quilt Alliance, EGAT believes that the
IG/A/I&E’s first recommendation has been fully met. EGAT therefore requests that
Recommendation #1 be closed.

With regard to recommendation #2, that EGAT develop and conduct training for program and
supervisory personnel about the mandatory pre-obligation requirements, EGAT agreed with the
IG’s recommendation in its December 20, 2010, draft report that additional training would
strengthen staff capabilities to deal with these important requirements. EGAT has already
developed Standard Operating Procedures for EGAT Bureau staff (attached). EGAT/I&E and
EGAT/PAICO also jointly conducted mandatory training for all EGAT/I&E staff on January 26,
2011. 82% of I&E staff attended this training. Staff who were on TDY at the time this training
was offered will be briefed separately about these requirements. Some of the training material
distributed to EGAT/I&E staff is attached. Based on actions already taken by EGAT to ensure
that pre-obligation requirements are met, and the additional training EGAT/I&E and
EGAT/PAICO conducted to reinforce compliance with Agency pre-obligation requirements,
EGAT requests that Recommendation #2 be closed.

Please contact me if you have any questions or need any additional information.




                                                                                             11
